APPLICATION AND
SOLICITATION
DISCLOSURE

VISA PLATINUM/VISA SHARE SECURED
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Platinum

7.99%

to18.00%

, based on your creditworthiness.

Visa Share Secured

3.99%
APR for Balance Transfers

Visa Platinum
7.99% to18.00% , based on your creditworthiness.
Visa Share Secured

APR for Cash Advances

3.99%
Visa Platinum
to18.00% , based on your creditworthiness.
7.99%
Visa Share Secured

3.99%
Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
Minimum Interest Charge
If you are charged interest, the charge will be no less than $1.50.
For Credit Card Tips from the
To learn more about factors to consider when applying for or using a
Consumer Financial Protection Bureau credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.
How to Avoid Paying Interest on
Purchases

Fees
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

None
None
1.00% of each transaction in U.S. dollars
Up to $25.00
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Minimum Interest Charge:
The minimum interest charge will be charged on any dollar amount.
Effective Date:
The information about the costs of the card described in this application is accurate as of: August 1, 2021
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Visa Platinum and Visa Share Secured are secured credit cards. Credit extended
under this credit card account is secured by various personal property and money including, but not limited to:
SEE NEXT PAGE for more important information about your account.
©CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04102328-MXC10-P-2-071521 (MXC102-E)

(a) any goods you purchase with this account, (b) any shares you specifically pledge as collateral for this
account on a separate Pledge of Shares, (c) all shares you have in any individual or joint account with the Credit
Union excluding shares in an Individual Retirement Account or in any other account that would lose special tax
treatment under state or federal law, and (d) collateral securing other loans you have with the Credit Union
excluding dwellings.
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if you are five or more days late in making a
payment.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.
Document Copy Fee:
$2.00 per page.

©CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04102328-MXC10-P-2-071521 (MXC102-E)

